           U.S. DEPARTMENT OF THE INTERIOR
            OFFICE OF INSPECTOR GENERAL



                         FY2005 Department of
                         the Interior Purchases
                         Made on Behalf of the
                         Department of Defense




Report No. X-IN-MOA-0018-2005          January 2007
INTERAGENCY CONTRACTING AT THE DEPARTMENT OF THE INTERIOR
DOI provides interagency contracting services to DOD and other federal agencies through
two fee-for-service organizations — GovWorks and SWB.

       GovWorks, which operates as a franchise fund, was originally authorized by the
       Government Management Reform Act of 1994 and has been reauthorized annually
       since that time. Franchise funds were created so that common administrative
       services could be centralized and efficiencies and cost savings would occur due to
       economies of scale, diminished overhead, and competition. The authorizing
       legislation allows GovWorks to retain up to 4 percent of its total annual income for
       DOI initiatives, such as acquiring an integrated financial system.

       SWB operates as part of a working capital fund. Its mission is to provide common
       administrative and support services efficiently and economically to the bureaus and
       offices of DOI and other federal agencies. Working capital funds may perform
       services for other organizations under Economy Act agreements that allow full
       reimbursement of costs but do not authorize earning or retaining any excess funds
       above costs. SWB was originally the Directorate of Contracting Mission Team,
       operated by the U.S. Army Intelligence Center and Fort Huachuca, and is currently
       located at Fort Huachuca, Arizona. DOI acquired the operation in 2001.

In FY2005, GovWorks received more purchase requests in the fourth quarter than it did in any
other quarter of that year. DOD is the largest customer for both GovWorks and SWB,
representing about 60 percent of activity for both organizations.


                                            Timing of Funds Received in FY 05



                        75%
                        65%
                        55%
                                                                           Fourth Quarter FY 05
                        45%
                        35%              56%                                    Sept. July -
                                                              44%               18% Aug.
                        25%
                                                                                      26%
                        15%
                         5%
                              First - Third Quarters   Fourth Quarter


GovWorks and SWB bought various types of goods and equipment, everything from balaclavas
and gloves to body armor and plasma televisions for DOD. The Centers also procured a wide
variety of services on behalf of DOD components, such as janitorial services, research and
development efforts, engineering, and information technology systems and support.

Agencies such as GovWorks and SWB that provide acquisition services and assistance to other
government entities are obligated not only to comply with all government-wide procurement laws
and regulations but also must follow internal guidance and the policy guidance of the requesting
agency.



                                                            2
Results of Audit
In providing acquisition services to DOD, DOI did not always follow appropriation and
procurement laws, regulations, and rules. As a result, DOI left DOD vulnerable to fraud, waste,
and abuse. DOI also made itself vulnerable to potential sanctions, loss of acquisition center
business, and a loss of public trust.
                                                        Bona Fide Needs Rule
We examined 49 contracting actions and found 19         The U.S. Congress first appropriated
potential violations of the Antideficiency Act          funds in 1789 “for the service of the
(ADA) as the actions are using what appear to be        present year.” Today, 31 U.S.C. §
expired funds. We found another potential               1502 continues this funding concept.
violation of the ADA on a contract that appeared to     Funds are available only for the needs
obligate the government in advance of                   of the fiscal period for which the
appropriation of the funds. We also found other         funds are authorized. These funds
types of deficiencies or questionable practices in 34   expire and cannot be used for needs
of the 49 contracting actions (69 percent). Those       that arise during subsequent fiscal
deficiencies and questionable actions include an        periods. This is commonly known as
improper contract, which created a potential ADA        the bona fide needs rule.
violation; unapproved contracting mechanism; and
various failings of contract administration procedures. Perhaps of more importance, DOI did not
always apply the principles of good stewardship over federal resources when providing
contracting services to DOD.

Potential Antideficiency Act Violations

 Both GovWorks and            GovWorks potentially violated the ADA when acquiring goods
 SWB may have violated        and services or awarding contracting actions for DOD by using
 the Antideficiency Act.      what appear to be expired funds on DOD purchases. SWB also
                              potentially violated the ADA when it obligated the U.S.
Government to pay funds over a 3-year period regardless of fund availability. Further,
GovWorks entered into a sub-lease agreement that is not authorized by law, and as a result, any
payments made on this sub-lease may be improper uses of appropriated funds in potential
violation of the ADA.

       Using Potentially Expired Funds

       GovWorks routinely uses potentially expired funds and, as a result, has potentially
       violated the ADA. In general, federal funds may only be used for the bona fide needs
       that occur during the period for which they were appropriated. In other words, monies
       appropriated by the Congress for FY2004 may not be used in FY2005 for the needs of
       FY2005. The funds GovWorks is using may have expired because the Military
       Interdepartmental Purchase Requests (MIPRs) funding documents lacked the specificity
       required to establish the bona fide need and record the obligations. DOD components
       often send funds to GovWorks at or near the end of their period of availability and
       sometimes provide only vague descriptions of the products or services being requested.
       These vague descriptions are not sufficient to demonstrate that a bona fide need existed in


                                              3
         the fiscal period for which the funds were appropriated. For example, in FY2004 a DOD
         component sent approximately $9 million to GovWorks for “competitive sourcing (A-76)
         support services.” The file did not provide any information about the functions or
         locations where the studies were to be conducted. An order should be sufficiently
         detailed to permit the contracting officer to immediately place the order without the need
         for further customer consultation. For example, a request to purchase supplies should
         identify the types of items required, as well as the quantity. For services, the order
         should contain a detailed description of the work needed. The Comptroller General has
         ruled that a purchase order that lacks a description of the products to be provided is not
         sufficient to create a recordable obligation.

         It appears GovWorks accepts vague and nonspecific requests for acquisition services to
         allow DOD components to park1 or bank funds at GovWorks and inappropriately extend
         their period of availability. Although GovWorks claims it does not believe that Congress
         intended for a franchise fund to perform financial alchemy and turn huge amounts of
         one-year funds into no-year funds, it appears that is what is happening. In FY2005, over
         40 percent of the funds received by GovWorks were received during the last quarter of
         the fiscal year; 18 percent or about $270 million2 was received in September alone. In
         the past, GovWorks advertised that it could extend the availability of limited
         appropriations and convert these funds to no year appropriations although it has since
         ceased this advertising practice. Despite requirements that DOD components transfer a
         best estimate of anticipated costs with a purchase request for products or services, DOD
         components frequently used MIPRs to transfer funds in bulk, with vague descriptions of
         requirements and no explanation or support for the amounts transferred. GovWorks, in
         turn, frequently uses funds from multiple MIPRs for a single purchase, sometimes
         appearing to try and use the oldest money first. For example, for Contract Action 41181,
         awarded in December 2004, GovWorks initially used funds from four separate MIPRs —
         three with FY2001 funds and one with FY2004 funds. In January 2005, GovWorks de-
         obligated the funds from one FY2001 MIPR and replaced those funds with funds from
         four additional MIPRs, including one with FY2000 funds. For the 29 contract actions we
         reviewed, GovWorks used funds from 103 MIPRs.

         The audit team reviewed 29 DOD purchases or orders awarded during FY2005 by
         GovWorks and determined that GovWorks used expired funds for the purchases on 19
         contracting actions (66 percent). For example:

             •    DOI Contract 41181. A GovWorks contracting officer awarded contract action
                  41181 to purchase decision agent network3 equipment for the Pentagon
                  Telecommunications Service Center (PTSC) for $108,196. DOI contract action
                  41181, awarded on December 21, 2004, was partially funded, for $72,033, using
1
  The term “to park funds” refers to the transfer of appropriated funds by one agency to another agency’s acquisition
center for the procurement of goods and services under circumstances where a bona fide determination is in doubt.
2
  We used budget information to determine total funding received in FY2005. We then multiplied that amount by
the 18 percent of total funding GovWorks reported it received in September 2005.
3
  The “Decision Agent” consists of a suite of integrated software applications run on a Windows 2000 server. The
system is designed to automate the processes of identifying, filtering, and distributing messages to specified
addresses and recipients, based on interest profiles and security clearances.


                                                       4
                FY2001 Army Operations and Maintenance (O&M) funds that expired on
                September 30, 20014. The equipment consisted of commercial items, and we
                found no evidence that a long lead-time was required to purchase these items, that
                the items were needed to replenish the inventory, or that there was an unforeseen
                delay in purchasing these items. Use of FY2001 funds to satisfy FY2005
                requirements fails to meet the intent of the bona fide needs rule.

            •   DOI Contract 41432. On February 8, 2005, a GovWorks contracting officer
                awarded contract action 41432, for $7,476, to purchase three 42-inch high
                definition plasma televisions with speakers for the PTSC. Contract action 41432
                was funded using FY2004 Army O&M funds that expired on September 30, 2004.
                The equipment consisted of commercial items, and we found no evidence that a
                long lead-time was required to purchase these items, that the items were needed to
                replenish the inventory, or that there was an unforeseen delay in purchasing these
                items. Use of FY2004 O&M funds to satisfy a FY2005 requirement does not
                meet the intent of the bona fide needs rule.

        GovWorks has a written policy that is intended to govern the review and acceptance of
        funding documents received from its clients, including how to determine whether a
        purchase request document includes enough information to establish a bona fide need.
        Based on our review of the contract files, however, we saw no evidence this policy was
        followed. Further, DOI officials told us that they relied on DOD to send only valid
        requests. GovWorks does have a responsibility to ensure its contracting actions comply
        with federal laws and regulations. Since the Government Accountability Office (GAO)
        has identified interagency contracting as a high-risk management area and since previous
        audit reports have identified DOD’s noncompliance with these rules, GovWorks should,
        as a steward of federal resources, rigorously examine DOD’s requests to ensure
        compliance with the bona fide needs rule.

        As of October 27, 2005, DOI had $577 million5 of potentially expired funds on its books
        as unfilled customer orders. These funds were potentially expired because they were
        appropriated for FY2005 or earlier periods.

        In March 2006, we provided DOI information identifying the customer orders that made
        up the $577 million. We requested that DOI research and resolve these items to avoid the
        possibility of spending expired funds in FY2006 and thereby avoid additional potential
        ADA violations. DOI continues its analysis of the issues and is in the process of
        resolving them.

        In August 2006, we examined an additional 12 purchase requests from the transactions
        making up the $577 million and found five did not have an established bona fide need.
        This lack of bona fide need resulted in expired funding at the end of FY2005.

4
  The three MIPRs include MIPR1MINTPR070 for $6,831; MIPR1JDIT0N046 for $26,399; and
MIPR1KINTWS058 for $38,803. MIPR4MINTMM125, for $36,163, using FY2004 O&M funds, was also used to
fund the purchase.
5
  The $577 million represents approximately $393 million received from DOD agencies and approximately $184
million received from nonDOD agencies.


                                                  5
        Unfortunately, DOI had also expended expired funds on three of the five transactions,
        which created additional potential ADA violations.

        Potential Advance Obligations

        SWB executed an Indefinite Delivery, Indefinite Quantity contract in February 2003 for
        the conduct of personnel security research. The contract guaranteed a minimum of $1
        million over a 3-year period. Although the executed contract contained standard
        language from Federal Acquisition Regulation (FAR) clause 52.232-19, Availability of
        Funds for the Next Fiscal Year, the date sections were blank and, therefore, this wording
        did not adequately protect the government from obligations beyond the current fiscal
        year. Because of this we conclude that SWB may have violated the ADA when it
        obligated the U.S. Government to pay funds over a 3-year period regardless of fund
        availability.

        Sub-lease for the Counterintelligence Field Activity

        GovWorks entered into an unauthorized sub-lease agreement to obtain office space for
        contractors on behalf of the Counterintelligence Field Activity (CIFA)6. Government
        agencies are limited by statute to using appropriated funds only for authorized purposes
        (31 U.S.C. § 1301(a) (1982)), and, as a result, the payments for this sub-lease potentially
        violate the ADA.

        Using the U.S. Small Business Administration (SBA) 8(a) Business Development
        Program, GovWorks contracted with TKC Communications, Inc. (TKC), an Alaskan
        Native Corporation, to obtain office space for contractors working for the CIFA. TKC
        leased the space from the building owner, but the lease document clearly describes the
        intent to obligate the U.S. Government to the lease agreement. GovWorks does not have
        the authority to lease space — this authority is reserved to the General Services
        Administration (GSA), unless specifically delegated to another government agency.
        Neither GovWorks nor CIFA had a delegation of authority from GSA. Further, this
        space was intended to be occupied by contractors, and even GSA does not have the
        authority to lease space for commercial contractors. As a result, GovWorks did not have,
        nor could it acquire, the delegated authority to enter into a lease agreement and could not
        delegate that authority to TKC. Furthermore, because the GovWorks/TKC contract was
        entered into without legal authority, it was likely void from its inception7.

        GovWorks officials have stated that the contract was for facilities management services
        and not a lease. However, the bulk of the contract — approximately 80 percent of the

6
  We also reviewed a contract for CIFA (1435-04-03-RC-73024) for approximately $16.9 million. This contract
action was for transition activities to include relocation of contractor staff and government-furnished equipment.
This contract action may have violated Public Law 107-248, which restricts the use of funds exceeding $500,000 for
DOD relocation within the National Capital Region.
7
  Even if GovWorks and/or CIFA had been authorized to contract for leased space, the process that was used to
obtain this space bypassed the requirements of multiple laws and rules governing the acquisition of leased space for
DOD entities including 40 U.S.C. § 3307, 10 U.S.C. § 2662(a)(1)(B), 31 U.S.C. § 1341(a)(1)(A), 31 U.S.C. § 1301,
and 10 U.S.C. § 2805; Public Law 107-248 section 8020 of the DOD Appropriation Act of 2003; and DOD
Instruction 5305.5, “Space Management Procedures, National Capital Region,” June 14, 1999.


                                                       6
       estimated $94 million cost of this contract — is for the lease payments. The statement of
       work requires the contractor “to provide space for multiple activities operated, sustained
       and controlled by Contractor personnel for” CIFA as a requirement of the contract. Other
       documents clearly indicate that this contract is a sub-lease arrangement between
       GovWorks and TKC for space to be occupied by CIFA contractors. These documents
       include the lease between TKC and the commercial vendor, TKC’s proposal to
       GovWorks, and correspondence between CIFA officials and GSA officials that request
       either a delegation of authority to lease space or an assurance that no delegation was
       needed because the space was for contractor personnel.

       Because GovWorks authorized the negotiation of a lease and payment of rental costs
       without authorization to do so, its contract with TKC constituted an unauthorized
       commitment likely resulting in a void contract. Consequently, DOI may have violated
       the ADA. Congressional involvement may be required to sort out this contract action.
       GovWorks will need to coordinate with CIFA to terminate that agency’s use of the space
       obtained through TKC or to identify and pursue potential means to ratify or correct the
       unauthorized commitment.

Internet-Based Electronic Storefront

 Use of the OMC left           SWB contracted with a commercial vendor to develop and
 DOD customers                 operate an internet-based electronic storefront (the Open Market
 vulnerable to poor            Corridor or OMC) without obtaining appropriate reviews and
 contracting practices,        approvals and without designing and implementing controls to
 fraud, waste, and abuse.      safeguard government interests. As a result, SWB left DOD
                               customers vulnerable to poor contracting practices, fraud, waste,
and abuse on those orders placed through the OMC which totaled more than $238 million since
2003.

       Approvals

       SWB did not obtain the approvals necessary to obtain or implement an electronic
       storefront. SWB and its customer, the Naval Postgraduate School, wanted to establish a
       one-stop, cradle-to-grave federal procurement system that bypassed DOI’s ordinary
       procurement system. SWB anticipated that high cost orders (for as much as $10 million)
       would be processed through the storefront. SWB did not obtain review and approval of
       the proposed contract from DOI procurement officials and did not obtain a legal review
       of the proposed contract from the Office of the Solicitor. Further, SWB did not obtain
       information technology security reviews and accreditation for this internet-based system.
       For this unique procurement action, especially with such high dollar value anticipated
       usage, these reviews were essential.

       Internal Control Issues

       SWB did not design and implement sufficient internal controls over the operation of the
       OMC. As a result:



                                             7
•   Competition was inappropriately limited.

•   Awards were made to vendors that did not appear to be the appropriate providers
    of the types of goods and services purchased.

•   A nonwarranted ordering officer ordered more than $135 million in goods and
    services through the OMC without the contracting officer’s oversight.

Limited Competition. Using the OMC limited competition because not all possible
vendors were registered in the OMC system. Competition was further limited
because the OMC permitted ordering officers to select which vendors would receive
solicitations without a public notice. Nonselected vendors in the OMC had no access
to the posted solicitations and, therefore, would have had no knowledge of a
solicitation and no opportunity to participate in the bidding or to protest their
exclusion. Further, there were no restrictions built into the OMC on how short a time
period vendors were given to respond to solicitations. Unreasonably short time limits
for responses would also limit competition. We identified some awards that were
made within hours of a solicitation.

Inappropriate Vendors. Awards were made through the OMC to what appeared to
be inappropriate vendors. Examples we found include the following.

    •   Sixteen OMC vendors appeared to be 1) Government employees or 2) firms
        affiliated with Government employees.

    •   One company that did not appear to deal in furniture was solicited for office
        furniture, while another vendor that specialized in office furniture was not
        given the opportunity to bid on the solicitation.

    •   One vendor that specializes in software development received an order for
        armor protection for use on Army military vehicles that are located in combat
        zones.

DODIG referred selected transactions to the DOD Deputy Inspector General for
Investigations and the Navy Acquisition Integrity Office for further review.

Ordering Officer. We found that a warranted contracting officer granted ordering
officer authority — with a $5 million limit on individual transactions — to a
non-warranted lecturer at the Naval Postgraduate School. The contracting officer told
us that she knew the lecturer did not have a warrant when she gave him ordering
officer authority. However, she thought the lecturer’s law school degree, in addition
to the training he said he had taken and the courses he taught, justified her granting
him this authority. The lecturer processed over 1,600 orders totaling almost $135
million in a 2-year timeframe. In addition to placing orders for his own organization,
the lecturer placed orders on behalf of the Army, the Marine Corps, and other Navy
activities. The contracting officer did not review or oversee these orders. DODIG




                                   8
           has referred these transactions to the Navy Acquisition Integrity Office for further
           review.

Based on our discussions with DOI about the OMC, DOI made the decision to immediately take
the system offline on March 3, 2006. Subsequently, the contract has expired, and, at the time our
audit report was issued, DOI did not plan on using the OMC as a procurement tool in the future.

Contract Administration Issues

 DOI did not ensure             DOI acquisition centers violated multiple contracting rules and
 there were adequate            regulations in support of its DOD customers. We identified a
 internal controls over         number of problem areas including a lack of competition,
                                unsupported price reasonableness decisions, insufficient review
 the contract process.
                                of contractor proposals, inadequate government cost estimates,
                                inadequate legal reviews, and a failure to adequately oversee
contracts. Overall, we found significant noncompliance with steps designed to protect the U.S.
Government’s interests. For example:

       ¾ Legal reviews were insufficient.

       ¾ Price reasonableness determinations were unsupported.

       ¾ Controls were not in place to prevent organizational conflicts of interest.

As a result, DOI did not provide adequate safeguards to ensure that DOD resources were
protected by appropriate contract provisions and that the resources were used efficiently.

       Legal Reviews

       We found that GovWorks and SWB are not ensuring that adequate legal reviews are
       being performed. DOI policy requires that all proposed solicitations in excess of
       $500,000 for noncommercial items and in excess of $2 million for commercial items
       receive a legal review by the Office of the Solicitor. A legal review is also required for
       all negotiated contract documents prior to award for all acquisitions in excess of
       $500,000. We reviewed 49 contract actions at both GovWorks and SWB; of those
       actions, 24 required legal reviews. We found that 10 had no legal review performed and
       that the remaining contract actions had what appeared to be limited or cursory reviews
       performed. Documentation of legal reviews often consisted of only a solicitor’s signature
       or e-mail correspondence in which the author implied a legal review was performed. A
       GovWorks May 2006 memorandum interpreting the legal review policy indicates that
       legal reviews will not be required for orders from the Federal Supply Schedule or other
       orders issued under multiple-award contracts, such as the items in our sample. Given the
       seriousness of the contracting problems presented in our audit report at both GovWorks
       and SWB, we believe it would be in DOI’s best interests to ensure that adequate legal
       reviews are performed on all contract actions as required by DOI policy.




                                              9
Price Reasonableness Determinations

For more than half of the 49 contracting actions we reviewed (25 actions or 51 percent),
contracting officials failed to adequately document and support that the prices paid,
especially for contracts for services, were fair and reasonable. Contracting officials relied
on e-mailed statements or cursory reviews from the DOD requesting offices as their
primary basis for price reasonableness determinations instead of documenting a detailed
analysis of the contractor’s proposed costs. Contracting officials also accepted
independent government cost estimates developed by DOD requesting activities that did
not adequately explain the bases used for the cost estimates. Further, for 19 service
contracts, contracting officials apparently relied on inadequate technical evaluations of
contractor proposals. For example, the technical evaluation for one order consisted of a
Memorandum of Record stating:

       The technical evaluation of the RFQ for the employ of instructors, admin,
       IT, armorers, and Logistics Warrior personnel for employment at the
       QMC&S was acceptable. Award the contract to [Contractor].

Clearly the responsibility for providing technical information to the contracting officers
rests with the DOD components that request the products or services. However, the
contracting officers had a responsibility to ensure that the prices paid were reasonable
and represented a good value to the U.S. Government. Contracting officers should have
required additional information and documentation to support their contracting decisions.

Organizational Conflict of Interest

SWB awarded contracts to the Chickasaw Nations Industries, Inc., (CNI) and Chenega
Advanced Solutions and Engineering, LLC, (CASE) that created potential organizational
conflicts of interest. SWB acquired on-site support services from the two companies
while not precluding them from competing for other contracts administered at SWB.
Since these contractors were physically located with the employees at the offices of
SWB, they were able to gain access to internal files and internal policies, learn
procedures, and develop relationships with personnel of the office. The FAR precludes
such real or apparent conflicts of interest.

It is the responsibility of the contracting officer to analyze planned acquisitions in order
to identify, evaluate, and mitigate potential organizational conflicts of interest before the
contract award. The contracting officer should incorporate items, such as clauses
restricting the companies from obtaining other contracts, nondisclosure agreements, and
notification prior to submitting any proposals, into the contracts. Neither contract
contained a clause that restricted the contractors from being awarded another contract by
SWB during the term of these contracts, nor were there any mitigation plans formulated.

Both contractors had an insider’s view of the acquisition office and had the immediate
opportunity to gain access to files, systems, and procedures. CNI assisted in the
contracting process, which made the potential for organizational conflict of interest even
greater. Although SWB required both CNI employees and CASE employees to sign


                                       10
       nondisclosure statements, all the signed statements could not be located. Further, this
       mitigation step was not enough. SWB failed to mitigate these potential organizational
       conflicts of interest by taking the steps outlined in the FAR and other guidance. For
       example, prior to award of the contract it did not:

           •   get advice from counsel for evaluating potential conflicts,

           •   develop necessary solicitation provisions, and

           •   develop necessary contract clauses.

       Rulings by the Comptroller General have held that real or apparent conflicts of interest
       can result in detrimental rulings for the agency when dealing with contractor protests.
       Failing to mitigate these potential organizational conflicts of interest may have left DOI
       vulnerable if other bidders had protested an award.

Stewardship

                                             GovWorks and SWB both failed in their
                                             responsibilities to act as good stewards of federal
                                             resources. When DOI acts as a contracting officer
                                             for others, DOI accepts the fiduciary responsibility
                                             over spending those funds wisely. DOI failed in its
                                             responsibilities to safeguard DOD monies by
                                             causing DOD to pay redundant fees. DOI made
                                             acquisitions using GSA schedules and existing
DOD contracts that DOD could have accessed directly. DOI contracting officers should have
advised DOD of the existence of GSA schedules and existing DOD contracts. When DOI uses
GSA schedules and DOD contracts for DOD purchases, DOD is paying unnecessary fees. For
example, in FY2005 DOI purchased 36 percent of its DOD requests (valued at $592 million)
from the GSA supply schedule. For these awards, DOI charged DOD as much as a 4 percent fee
($22.8 million) in addition to the GSA fee. The excess fees of $22.8 million could have been
saved or put to better use. For example, had DOD gone directly to GSA and saved the cost of
DOI fees, it could have used these monies to help fund the war in Iraq.

Management Oversight

DOI management did not provide sufficient oversight to its contracting centers conducting
business on behalf of other government agencies. Previous audit reports and management
reviews had identified significant problems with these contracting activities, but corrective action
was not implemented or was not effective. We provide examples below.

       ¾ In April 2005, GAO reported insufficient management oversight and a lack of
         adequate training by SWB. As a result, GAO found that DOI:

               •   did not comply with competition rules,



                                              11
               •   did not ensure best value for the U.S. Government, and

               •   did not adequately monitor contractor performance.

       ¾ In July 2005, GAO reported that GovWorks did not always ensure fair and reasonable
         prices when procuring goods and services.

       ¾ In July 2004, DOI OIG reported SWB awarded task orders for interrogators against
         existing GSA blanket purchase agreements awarded for information technology and
         professional engineering disciplines, such as network services and electrical,
         mechanical, and chemical engineering services. This occurred because SWB lacked:

               •   effective policies, procedures, and process controls and

               •   monitoring and oversight by DOI management.

In addition, DOI Management Reviews have identified similar problems. In April 2003, DOI
management 1) identified a lack of both consistent policy and legal review and 2) reported that
contracting officers did not always ensure prices were fair and reasonable.

Despite the numerous external and internal reviews identifying similar issues, our audit found the
same problems.

As further evidence of management’s lack of concern over the operations of these acquisition
centers, they have nonconcurred with recommendations to establish performance measures for
these activities. On the last three audits of the financial statements, KPMG (DOI’s independent
public auditor) recommended DOI establish performance measures for GovWorks and SWB.
KPMG made these recommendations based, in part, on the magnitude of these operations — in
FY2005 these centers processed $1.7 billion for orders for DOD. Further, DOI relies on these
activities to reduce operating costs through economies of scale and uses retained earnings to
supplement DOI programs. In its response, however, DOI management indicated that measuring
the performance of these activities was immaterial to DOI, as they do not represent DOI’s core
mission.

DOI Actions

Based on our conclusions and concerns, DOI took action to assess the status of contracting
procedures at SWB, including temporarily revoking contracting officers’ warrants. Using
industry specialists and in-house experts, NBC designed an evaluation plan to assess contracting
officers’ knowledge and skills. It has completed this evaluation and provided the Director,
Office of Acquisition and Property Management, with recommendations on which warrants to
reinstate. They have also identified training needs for certain contracting officers and some of
this training has already occurred.

In addition, DOI has reported to the Director, Defense Procurement and Acquisition Policy, that
it has detailed guidance and checklists established to address several of the contract


                                              12
administration issues identified by the audit. This guidance includes checklists for price
reasonableness determination procedures, legal review requirements, and expanded requirements
for documentation of independent U.S. Government cost estimates.

As noted in previous sections of the report, DOI had taken the OMC system offline on March 3,
2006. Subsequently, the contract expired, and, at the time our audit report was issued, DOI did
not plan on using the OMC as a procurement tool in the future. Further, DOI continues to
research and evaluate potentially expired FY2005 and earlier funds that remained on its books at
the beginning of FY2006 and has stated it is in the process of resolving the issues noted.

In its November 30, 2006 response, the Assistant Secretary for Policy, Management and Budget
concurred with Recommendations 1, 2, 3, 7, 8, 9, and 10 and did not concur with
Recommendations 4, 5, and 6. We have summarized the responses to the individual
recommendations and provide our analysis of those responses below.

Recommendations

1.     Evaluate potentially expired funds in DOI’s possession and return any expired funds to
       the appropriate agency.

       DOI Response

       DOI concurred with our recommendation to evaluate potentially expired funds in its
       possession and return any expired funds to the appropriate agency. DOI stated it will
       continue to evaluate the status of client funds that have not been re-obligated to determine
       whether such funds should be returned to the appropriate agency. Further, DOI stated the
       Interior Franchise Fund (IFF) is authorized to retain and re-obligate funds under certain
       circumstances.

       OIG Analysis of DOI Response

       While we acknowledge that the Department has initiated actions to address this
       recommendation, further analysis and action is still needed. Funds that were not properly
       obligated by the ordering agency because of lack of specificity or a bona fide need and
       were accepted by the contracting office must be returned to the requesting agency if their
       period of availability has expired.

2.     Research and resolve any violation of the bona fide needs rule. If funds from the correct
       fiscal period are not currently available to cover the obligation, take steps necessary to
       determine whether a violation of the ADA occurred.

       DOI Response

       DOI concurred with our recommendation and is actively researching the transactions in
       question. DOI will refer any potential violations of the bona fide needs rule for further
       investigation by the ordering entity. An ADA violation would only occur if it is



                                             13
     determined that an obligation was made to the wrong fiscal year appropriation and that
     the appropriation account that should have been properly charged did not have enough
     money to permit an adjustment. It is premature to equate improperly charging an
     unavailable appropriation with violating the ADA before it is definitely known there is
     insufficient funding in the proper appropriation to make an adjustment.

     OIG Analysis of DOI Response

     As mentioned in the recommendation, the OIG understands that not all bona fide needs
     rule violations will lead to ADA violations. The OIG is concerned with the violations in
     which funds from the correct fiscal period are not available. We acknowledge the
     Department has made progress in this effort and encourage the Department to conduct
     further research and analysis.

3.   Implement controls to ensure a bona fide need is established before accepting a purchase
     request.

     DOI Response

     DOI concurred with our recommendation and is in the process of revising the procedures
     for accepting funds. Quality controls to improve procedures are currently being drafted.

     OIG Analysis of DOI Response

     We recognize that the Department is drafting quality controls to improve procedures for
     accepting funds. It is of the utmost importance that these procedures specifically address
     measures to ensure a bona fide need is established before a contracting office accepts the
     funds.

4.   Notify CIFA and SBA that the contract is likely void because of the lack of authorization
     to lease space, and pursue actions to remedy this unauthorized commitment.

     DOI Response

     DOI nonconcurred with our recommendation. The Department fundamentally disagrees
     with our conclusion that this contract to obtain office space is a sub-lease. Further, the
     Department states that CIFA’s director and the Department of Justice Foreign Terrorist
     Tracking Task Force’s chief counsel had advised DOI that consolidating and co-locating
     contractor space was within CIFA’s authority.

     OIG Analysis of DOI Response

     We have reviewed the information provided by the Department. However, the
     Department did not provide any information that changed our conclusions. The OIG will
     take appropriate steps to have this issue addressed by GAO.




                                           14
5.   Discontinue payments to TKC for the void contract if it cannot be corrected or ratified.

     DOI Response

     DOI nonconcurred with our recommendation.

     OIG Analysis of DOI Response

     The OIG will take appropriate steps to have this issue addressed by GAO.

6.   Take steps necessary to determine whether an ADA violation related to the TKC contract
     occurred.

     DOI Response

     DOI nonconcurred with our recommendation.

     OIG Analysis of DOI Response

     The OIG will take appropriate steps to have this issue addressed by GAO.

7.   Evaluate any ongoing contract actions awarded through the OMC to ensure validity and
     take appropriate corrective actions as necessary to complete or close those contract
     actions.

     DOI Response

     DOI concurred with the recommendation and has already implemented corrective
     actions.

     OIG Analysis of DOI Response

     While the Department has been responsive to this finding from the beginning, the OIG
     encourages the Department to research the remaining open contracts and expeditiously
     close these contracts.

8.   Implement policies and procedures to ensure contracting actions comply with acquisition
     laws, regulations, and rules.

     DOI Response

     DOI concurred with our recommendation and has taken steps or plans to take steps to
     address the recommendation. These include standard checklists, additional training for
     contracting officers (including section 803 for DOD ordering activities), updated policies
     for DOI legal reviews, guidance for performing independent government cost estimates,
     emphasis and training on price reasonableness and cost analysis documentation, inclusion



                                           15
       of organizational conflict of interest clauses in contracting activities, implementation of
       independent quality reviews, establishment of a performance assessment and
       improvement team, and implementation of annual acquisition management reviews.

       OIG Analysis of DOI Response

       The Department has taken or is in the process of taking steps to address this
       recommendation.

9.     Require DOI procurement officials to certify policies and procedures are established and
       implemented to correct identified deficiencies at GovWorks and SWB.

       DOI Response

       DOI concurred with our recommendation, and NBC will develop a corrective action plan
       to establish timeframes and accountability for ensuring that policies and procedures are
       established and implemented.

       OIG Analysis of DOI Response

       The Department has stated that NBC will develop an action plan. While this is a start,
       continued acquisition management reviews must be conducted to ensure these policies
       and procedures, in fact, correct the deficiency and are implemented.

10.    Establish policy and provide training on the fiduciary responsibilities of contracting for
       others.

       DOI Response

       DOI concurred with this recommendation.

       OIG Analysis of DOI Response

       While the Department has concurred with our recommendation, the OIG could not
       discern from the reply the Department’s current corrective actions in the area. However,
       the Department has agreed to establish policy and provide training on the fiduciary
       responsibilities of contracting for others.

Based on the response, we consider Recommendations 4, 5, and 6 unresolved and need
additional information regarding Recommendations 1, 2, 3, 7, 8, 9, and 10. We are asking the
Assistant Secretary to reconsider Recommendations 4, 5, and 6 and to provide a written response
to this report by February 9, 2007, that supplies the information requested in Appendix 3.

Our draft report included appendices containing details of the specific contracting actions we
reviewed and the potential deficiencies identified for each contracting action. We provided that




                                              16
level of detail to facilitate DOI’s review and response to our draft report. For the sake of brevity
in the final report, we have not included this detailed information.

In addition, DOI’s response is lengthy (46 pages) and contains information that is not responsive
to our report. Again for the sake of brevity, we have not included DOI’s entire response in the
report. We summarized the response by area and provide that summary and our analysis of the
response in Appendix 4.

The legislation, as amended, creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our audit
recommendations, and recommendations that have not been implemented. We appreciate the
cooperation shown by Interior bureaus during our review. If you have any questions regarding
this report, please call me at 202–208–5745.




                                               17
                                                                                      Appendix 1

                        OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether the purchases of goods and services made
by the Department of the Interior (DOI) on behalf of the Department of Defense (DOD) were
made in accordance with applicable laws and regulations. Specifically, we reviewed individual
contracts to determine whether DOD clearly defined requirements and used proper funding and
whether DOI followed the Federal Acquisition Regulation and Defense Federal Acquisition
Regulations while providing contracting services to DOD. We conducted our audit from August
2005 to October 2006.

The scope of the audit covered FY2005 procurement actions. We reviewed 49 contract actions
valued at $277.1 million. We judgmentally selected acquisitions at both GovWorks and SWB.

We conducted our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures as we considered necessary under the circumstances. Further, the
audit was conducted pursuant to requirements under the National Defense Authorization Act for
FY2006 (NDAA). To accomplish the audit objective, we reviewed (1) applicable laws,
regulations, and policies and (2) documents, including contract actions, contract files, financial
reports, and other data applicable to DOI interagency contracting offices. Specifically, we
assessed:

       •   bona fide needs rule compliance,
       •   contractor performance monitoring,
       •   competition adequacy,
       •   price reasonableness determination suitability,
       •   funds type appropriateness,
       •   market research requirement compliance, and
       •   legal review sufficiency.

We interviewed DOI officials and staff of GovWorks, SWB, the National Business Center, and
the Office of the Solicitor and DOD representatives of the Office of Acquisition, Technology,
and Logistics, the Office of the Comptroller, and various requesting agencies. We coordinated
our audit with the DODIG, as required by section 811 of the NDAA.

As part of our audit, we evaluated the system of internal controls to the extent that we considered
necessary to accomplish our objective. The internal control weaknesses identified are discussed
in the Results of Audit section of this report. If implemented, the recommendations should
improve the internal controls.




                                              18
                                                                                    Appendix 2

                                    RELATED REVIEWS
The Government Accountability Office (GAO) and the Office of Inspector General, Department
of the Interior (DOI), issued recent reports that were applicable to our audit.

GAO

¾ July 2006. “Contract Management: DoD Vulnerabilities to Contracting Fraud, Waste, and
  Abuse” (GAO-06-838R) identified vulnerabilities to contracting fraud, waste, and abuse at
  DOD due to weaknesses in five key areas: sustained senior leadership, capable acquisition
  workforce, adequate pricing, appropriate contracting approaches and techniques, and
  sufficient contract surveillance. Consequently, GAO has had contract management on its list
  of high-risk areas since 1992.

¾ April 2006. “Increased Use of Alaskan Native Corporations’ Special 8(a) Provisions Calls
  for Tailored Oversight” (GAO-06-399) reported that agencies used 8(a) Alaskan Native
  Corporations (ANC) firms as a quick, easy, and legal method of awarding contracts for any
  value, while helping meet small business goals. In one contract, GovWorks did not consider
  any alternatives other than sole-source contracting with the ANC firm because the DOD
  agency had requested that firm. GAO recommended DOI work with the Small Business
  Administration (SBA) to develop guidance on how to comply with requirements of the 8(a)
  program, such as limitations on subcontracting and notification to SBA of contract
  modifications. DOI, overall, concurred with GAO’s recommendations.

¾ July 2005. “Interagency Contracting: Franchise Funds Provide Convenience but Value to
  DoD is Not Demonstrated” (GAO-05-456) reported that GovWorks did not always ensure
  fair and reasonable prices when procuring goods and services, specifically when requesting
  that contractors perform additional work. GovWorks, thereby, substantially increased
  contract values. In many cases, GovWorks did not receive competing proposals. GAO
  recommended DOI develop procedures for (1) GovWorks to demonstrate compliance with
  federal procurement regulations and policies and for (2) GovWorks contracting officers to
  work closely with DOD customers to define contract outcomes and effective oversight
  methods. DOI concurred with GAO’s recommendations and was currently taking corrective
  actions.

¾ April 2005. “Interagency Contracting: Problems with DoD’s and Interior’s Orders to
  Support Military Operations” (GAO-05-201) reported that a lack of management controls,
  specifically insufficient management oversight and inadequate training, led to DOI not (1)
  issuing orders that were within the scope of the underlying contract, in violation of
  competition rules; (2) complying with additional DOD competition requirements when
  issuing task orders for services on existing contracts; (3) complying with ordering procedures
  meant to ensure best value for the government; and (4) adequately monitoring contractor
  performance. GAO recommended that DOI ensure management reviews of contracting
  offices emphasize and assess whether contracting officials are trained adequately and ensure


                                              19
   performance measures for contracting officers provide incentives to exercise due diligence
   and comply with applicable contracting rules and regulations. DOI agreed with all
   recommendations and was taking corrective actions.

¾ March 2005. “Contract Management: Opportunities to Improve Surveillance on Department
  of Defense Service Contracts” (GAO-05-274) found insufficient surveillance on DOD
  contracts due to lack of (1) documentation, (2) personnel assigned surveillance
  responsibilities, or (3) required training. GAO recommended DOD provide training, ensure
  accountability, improve the contract review process, and revise policy on proper use of other
  agencies’ contracts. DOD, in general, concurred with all of the recommendations.

¾ January 2005. “High Risk Series: An Update” (GAO-05-207) identifies management of
  interagency contracting as a new area included in GAO’s list of high risk areas within the
  federal government. GAO, along with some agency Inspectors General, found instances of
  improper use of interagency contracts; failure to follow prescribed procedures that ensure fair
  prices when using schedule contracts to acquire services; and, specifically at DOD, waiver of
  competition requirements on supply schedule orders due to preference in retaining the
  services of incumbent contractors. GAO and others believe these deficiencies occurred
  because of the increasing demands on the acquisition workforce; insufficient training; and, in
  some cases, inadequate guidance. GAO also points out that the fee-for-service arrangement
  creates an incentive to increase sales volume in order to support other programs of the
  agency that awards and administers interagency contracts. This incentive may lead to an
  inordinate focus on meeting customer demands, at the expense of complying with required
  ordering procedures.

¾ July 2002. “Contract Management: Interagency Contract Program Fees Need More
  Oversight” (GAO-02-734) determined most of the contract service programs reviewed
  reported an excess of revenues over costs in at least 1 year between FY1999 and FY2001.
  OMB guidance directs agencies with franchise fund programs to account for and recover
  fully allocated actual costs and to report on their financial results. Agencies are supposed to
  identify all direct and indirect costs and to charge fees to ordering agencies based on these
  costs. DOI agreed the information and recommendations in the report provide OMB helpful
  guidance for oversight of a growing interagency program.

Office of Inspector General

¾ March 2006. “Fee-for-Service Organizations, Department of the Interior” (C-EV-MOA-
  0016-2005) determined the overall benefits of DOI’s fee-for-service operations may not
  outweigh the risks to the Department. These risks include DOI and other agencies not
  following procurement laws and regulations and fee-for-service providers sometimes
  operating without effective controls in their desire to attract customers in a competitive
  environment.

¾ November 2005. “U.S. Department of the Interior Annual Report on Performance and
  Accountability” (X-IN-MOA-0011-2005) identified Procurement, Contracts and Grants as
  one of its Top Management Challenges. Procurement has historically been an area subject to



                                               20
   fraud and waste government-wide, and managing procurement activities is a continuing
   challenge requiring constant attention.

¾ July 2004. “Review of 12 Procurements Placed Under General Services Administration
  Federal Supply Schedules 70 and 871 by the National Business Center” (W-EV-OSS-0075-
  2004) found procurements made under the GSA schedule at SWB in Ft. Huachuca, AZ, were
  out of scope. Factors that allowed these transactions to occur included (1) a lack of effective
  policies, procedures, and process controls and of monitoring and oversight by NBC
  management and (2) the inherent conflict in a fee-for-service operation. OIG recommended
  termination of inappropriate contracts; revision of criteria for the Alternative Management
  Control Reviews of the acquisition function, to include operations at NBC; and development
  of policies and procedures to prevent similar actions in the future. DOI management was
  collaborating with other agencies to correct these deficiencies.




                                               21
                                                                           Appendix 3

                  STATUS OF AUDIT RECOMMENDATIONS

Recommendations            Status                       Action Required
                  Management concurred        Please provide the name and title of the
      1, 2, 3     with the recommendations;   official responsible for completing the
                  additional information is   corrective action and a planned
                  needed.                     completion date.

                  Unresolved.                 Please provide a written response stating
        4                                     your concurrence or nonconcurrence with
                                              the finding and recommendation, the
                                              name and title of the official responsible
                                              for implementing the recommendation,
                                              and an estimated completion date for
                                              implementation.

                  Unresolved.                 Please provide a written response stating
        5                                     your concurrence or nonconcurrence with
                                              the finding and recommendation, the
                                              name and title of the official responsible
                                              for implementing the recommendation,
                                              and an estimated completion date for
                                              implementation.

                  Unresolved.                 Please provide a written response stating
        6                                     your concurrence or nonconcurrence with
                                              the finding and recommendation, the
                                              name and title of the official responsible
                                              for implementing the recommendation,
                                              and an estimated completion date for
                                              implementation.

                  Management concurred        Please provide the name and title of the
    7, 8, 9, 10   with the recommendations;   official responsible for completing the
                  additional information is   corrective action and a planned
                  needed.                     completion date.




                                     22
                                                                                       Appendix 4

                       DEPARTMENT COMMENTS AND OIG RESPONSES
The following table summarizes the Department’s comments to the draft report and our
response:

            Department Comment                                    OIG Response

                                      INTRODUCTION

 The Department response includes a               The Department response appears to be an
 discussion regarding the “unique purpose” of     attempt to justify why GovWorks and SWB
 intragovernmental revolving (IR) funds. Its      do not believe they have to comply with
 response implies that, when comparing IR         relevant contracting laws and regulations.
 funds to other Economy Act interagency
 activities, a broader interpretation or
 allowance must be considered as it relates to
 the usage of year-end balances.

 The Department response does not address         Our report states that “neither GovWorks nor
 the issue of noncompliance with legal            SWB complied in full with legal
 requirements, federal acquisition regulations,   requirements, federal acquisition regulations,
 and DOD supplemental requirements. Rather,       and with DOD supplemental requirements.”
 it attempts to justify why GovWorks believes     We provide many specific examples of this
 funding does not expire after its period of      noncompliance throughout our audit report.
 availability.


 The Department response appears to imply         SWB actually operates as part of a working
 that GovWorks and the SWB operate under          capital fund and is subject to the provisions of
 the same legislation.                            the Economy Act.

 The Department response cites congressional      We do not believe congressional intent is as
 intent concerning franchise funds (e.g.,         clear as the Department suggests. Our audit
 “Congress was aware that agencies sometimes      criteria consisted of written laws, regulations,
 experience bottlenecks . . .”).                  and policies.


                        INTERAGENCY CONTRACTING AT DOI

 The Department takes issue with the draft        Our report simply states the fact that
 report statement that “both GovWorks and         GovWorks receives more purchase requests in
 SWB receive the majority of purchase             the fourth quarter than it does in the first


                                                 23
           Department Comment                                          OIG Response
requests in the last quarter of the fiscal year.”    quarter, second quarter, or third quarter (not
Their response implies that the 44 percent of        combined). We presented statistics, as
purchase requests received in the fourth             provided by GovWorks personnel during our
quarter is less than the 56 percent of purchase      audit fieldwork. Our working papers support
requests received in the first through third         the 44 percent statistic.
quarters, combined. Further, the Department
response indicates that the correct percentage
of purchase requests received in the fourth
quarter is 38 percent, not 44 percent.


                                  RESPONSE TO FINDINGS


Using Potentially Expired Funds

The Department reiterates its restatement of             Without context or providing specific
appropriations law language.                             examples, this discussion is meaningless.



The Department states that it could not find the         Our report stated that GovWorks had, in the
statement “that it could extend the availability         past, advertised that it could extend the use
of limited appropriations and convert these              of appropriated funds; it did not quote the
funds to no year appropriations.”                        advertisement. The advertisement actually
                                                         stated “Concerned about getting your
                                                         project awarded before the fiscal year ends?
                                                         Say Goodbye to ‘use it or lose it.’ With
                                                         GovWorks projects funds are held in your
                                                         project account until spent.”

                                                         This advertisement was discontinued, but
                                                         the GovWorks Web site continued to
                                                         include the following question and answer
                                                         in its FAQ section:

                                                         ¾   Is it true that funds provided to the U.S.
                                                             DOI franchise fund can be held until
                                                             expended without regard to fiscal year?




                                                    24
           Department Comment                                      OIG Response
                                                      This is the answer given:

                                                      ¾   Yes. Funds can be held without regard
                                                          to fiscal year . . . .


Potential Advance Obligations

The Department agrees with our analysis, but          SWB obligated the U.S. Government to
states that this “was an isolated case and            spend at least $1 million over 3 years,
corrective actions have been taken to prevent         without adequate contractual protection,
any future occurrence.” Further, the                  regardless of how much ended up actually
Department believes that there was no ADA             being spent. At the time the contract was
issue with the referenced IDIQ, because “well         executed, SWB was obligating future-year
over $1 million of orders were issued within the      funds. Further, the Department did not
first seven months of the base year . . . .”          provide documentation of what corrective
                                                      actions were taken to prevent future
                                                      occurrences of this nature.


Sub-lease for Counterintelligence Field Activity

The Department fundamentally disagrees with         We fundamentally disagree with the
our interpretation that the “service contract” is a Department on this issue. The OIG will
“lease.”                                            take appropriate steps to have this issue
                                                    addressed by the GAO.


Internet-Based Electronic Storefront

The Department reiterates our finding relating        The Department response did not address
to the OMC.                                           our report conclusion regarding the OMC,
                                                      which stated the OMC was established
                                                      without the necessary approvals and lacked
                                                      adequate internal controls.


Contract Administration Issues — Legal Reviews

The Department takes the position that it relies      The Department response does not address
on the DOI Office of the Solicitor as to the          the concerns raised in our report. We will
“form and substance of legal reviews.” It also        have an opportunity to assess the adequacy


                                                 25
           Department Comment                                       OIG Response
states that there has been onsite legal counsel at    of these policies during our follow up audit.
SWB since 2004 who works with contracting
personnel. The Department said it has also
recently re-issued its legal review policy and
has stated it has issued additional policy
regarding legal reviews.


Contract Administration Issues — Price Reasonableness Determinations

The Department concurred with our finding             Our audit report accurately presents our
relating to the lack of adequate support for          findings, and we will have an opportunity to
prices paid on some of the contracts we               re-assess this issue during our follow up
reviewed and stated that it had provided              audit.
additional training and instituted other
procedures to correct this problem.

However, the Department took issue with some
of our opinions regarding the adequacy of the
documentation actually contained in the
contracting files.


Contract Administration Issues — Organizational Conflicts of Interest

In its response, the Department cites the FAR         Our audit report accurately presents our
§ 9.5 and implies that no violation has occurred      findings, and we will have an opportunity to
yet because no awards for which the onsite            re-assess this issue during our follow up
contractors had bid had been awarded. The             audit.
Department says that all necessary precautions
to mitigate any conflicts of interest will be
taken prior to any contracts being awarded.
However, the response also states that policies
and procedures relating to organizational
conflicts of interest have been modified and
strengthened.


Stewardship

The Department response presents a lengthy            While the Department response presents
assertion that our analysis of this issue is over-    some valid arguments, we maintain our
simplified and flawed. The Department cites           position that there may be instances when


                                                 26
           Department Comment                                    OIG Response
several examples of when it may be appropriate      DOD could directly perform its own
for an agency to utilize its services for routine   contracting functions using GSA schedules
contracting actions. In addition, GovWorks          and existing DOD contracts and save the
uses this opportunity to tout its services and      service fee charged by GovWorks. Our
expertise, which we did not question in our         finding that DOD may have paid as much as
report.                                             $22.8 million in unnecessary fees is still
                                                    valid and supported. The Department
                                                    response did not directly address this issue.


Management Oversight

The Department response states that both            The exact progress the Department has
GovWorks and SWB have undergone                     made will be determined when we conduct
substantial changes and reorganizations since       our follow up audit.
prior audits cited in our report were conducted
and cites details of those changes.




                                               27
28
